      Semiannual
        Report to
        Congress
April 1, 2010–September 30, 2010
                    OIG-CA-11-002


       Office of Inspector General
      Department of the Treasury
Highlights
During this semiannual reporting period, the Office of Audit issued 17 products and work by the Office
of Investigations resulted in three arrests, four indictments/informations, and two convictions. Some of
our significant results for the period are described below.

   • We completed a joint evaluation with the Federal Deposit Insurance Corporation (FDIC) Office
       of Inspector General of the Washington Mutual Bank (WaMu) failure. With $307 billion in
       assets, WaMu was the largest institution to fail in U.S. history. JPMorgan Chase & Co. acquired
       WaMu in an FDIC facilitated transaction that resulted in no loss to the Deposit Insurance Fund.
       WaMu’s failure resulted from management’s pursuit of a high-risk lending strategy that included
       liberal underwriting standards and inadequate risk controls. The Office of Thrift Supervision’s
       examinations identified concerns about WaMu’s high-risk lending strategy but did not adequately
       ensure that WaMu corrected those problems early enough to prevent its failure. The Inspectors
       General for Treasury and FDIC testified on the results of the joint evaluation before the Senate
       Permanent Subcommittee on Investigations in April 2010.
   • We completed material loss reviews of four failed Treasury-regulated financial institutions that
       together resulted in a loss to the Deposit Insurance Fund of approximately $5.7 billion. As noted
       in prior reviews, overly aggressive growth strategies, risky lending products such as option
       adjustable rate mortgages, unsound underwriting, high concentrations in commercial real estate
       loans, inadequate risk management systems, and ineffective management and boards,
       exacerbated by the decline in the real estate market, were primary reasons for the failures.
   • As a result of a joint investigation with the Federal Bureau of Investigation, a Treasury official
       was indicted, pled guilty, and sentenced in the U.S. District Court for the District of Columbia
       on two counts of unlawful distribution of methamphetamines.
   • An Office of Inspector General investigation revealed that an Army financial clerk stole another
       soldier’s stored value card issued through a joint Treasury and Army program and used it for
       unauthorized purchases. The clerk pled guilty to charges of dereliction of duty, theft of $10,000
       under the Uniform Code of Military Justice, and wire fraud. His sentence included 30 days of
       confinement, a reduction in rank, and the forfeiture of $964. In addition, he will receive an
       Other Than Honorable Discharge from the military upon completion of his sentence.

The Dodd-Frank Wall Street Reform and Consumer Protection Act (Dodd-Frank), enacted in July 2010,
raised the threshold loss to the Deposit Insurance Fund triggering a required material loss review of a
bank failure from $25 million to $200 million. However, Dodd-Frank requires a limited review of all
losses under the threshold to determine whether the losses should be reviewed in more depth. We must
report on our determinations to Congress every 6 months. This semiannual report includes a new
section to fulfill this new reporting requirement. It presents the results of 32 limited reviews. We
determined that more in-depth reviews were warranted for 2 of the bank failures and reviews were not
warranted for the other 30 bank failures.
Message From the Inspector General
Over the past 6 months, we continued to focus resources on meeting our statutory obligations, most
notably those requiring in-depth reviews of failed Treasury-regulated banks. Unfortunately, weaknesses
in both the residential and commercial real estate markets continue to plague a large number of financial
institutions. With the passage of the Dodd-Frank Wall Street Reform and Consumer Protection Act
(Dodd-Frank), however, the threshold triggering in-depth reviews of failed banks has been significantly
increased. As a result, we do anticipate relief in the number of these required reviews. To date, my staff
has done an outstanding job in the conduct of these failed bank reviews. We have identified numerous
problems with fundamental risk management and sound banking practices that led to most of these
failures. We have also indentified numerous weaknesses in the supervision exercised by the regulators
and have made over 44 recommendations to improve bank supervision. We have also begun to devote
more investigative resources to examining potentially fraudulent transactions identified by our auditors
during failed bank reviews. In the end, I cannot stress enough the importance for both the industry and
the regulators to take the lessons learned from the current wave of failures and strengthen their
practices.

Looking ahead, I will be devoting substantial resources to meet new mandates and other areas of very
high risk, including overseeing (1) the transfer of the Office of Thrift Supervision’s functions to the
other banking agencies, (2) Treasury’s non-Internal Revenue Service Recovery Act programs, (3) the
Terrorist Financing Tracking Program, (4) Financial Crime Enforcement Network’s Bank Secrecy Act
information technology modernization effort, and (5) Treasury’s efforts to prevent and recover
improper payments.

In addition, as the Treasury Inspector General, I chair the Council of Inspectors General on Financial
Oversight (CIGFO) established by Dodd-Frank. CIGFO facilitates the sharing of information among
inspectors general with a focus on reporting our concerns that may apply to the broader financial sector
and ways to improve financial oversight. Accordingly, CIGFO will be an important source of
independent, unbiased analysis to the Financial Stability Oversight Council (chaired by the Treasury
Secretary), Congress, and the public. I also continue to serve as a statutory member of the Recovery
Accountability and Transparency Board, which was established in 2009 to coordinate and conduct
oversight of Recovery Act funds to prevent fraud, waste, and abuse.

Dodd-Frank also established the Bureau of Consumer Financial Protection within the Federal Reserve
System to be headed by a director appointed by the President and confirmed by the Senate. Until a
director is confirmed, however, Treasury has the authority to perform bureau functions. Accordingly,
until it is transferred to the Federal Reserve, the bureau is under the jurisdictional oversight of my office.
To facilitate effective oversight of this important new consumer protection agency, we are in close
coordination with the Federal Reserve Inspector General and her staff, who will have jurisdictional
oversight once a director is confirmed.




Treasury Office of Inspector General Semiannual Report—September 2010                            i
                                                              Message From the Inspector General

I think it is important to note that the Small Business Jobs Act of 2010, passed in late September 2010,
designated my office to provide oversight of two new important Treasury programs—the Small
Business Lending Fund which provides $30 billion for capital investments to eligible institutions to
increase the availability of credit for small businesses, and the State Small Business Credit Initiative
which provides up to $1.5 billion allocable to participating states to fund a variety of programs to
encourage lending. As required by the act, I will establish an Office of Small Business Lending Fund
Oversight, headed by a Special Deputy Inspector General who will report directly to me. Our oversight
plans for these two new Treasury programs are being developed now.

I am very proud of the hard work and dedication of the Treasury Office of Inspector General staff. We
have a strong cadre of talented, energized, and motivated employees. It is also with great pleasure that I
can report that according to the most recent independent government-wide employee satisfaction
survey, our office ranked 3rd out of 224 agency subcomponents. I look forward to working with my
senior leadership team to build on this outstanding achievement and meet the challenges before us.




Eric M. Thorson
Inspector General




Treasury Office of Inspector General Semiannual Report—September 2010                          ii
Contents
Message From the Inspector General ....................................................................................... i 
Overview of the Office of Inspector General ............................................................................ 1 
Treasury Management and Performance Challenges ............................................................. 2 
Significant Audits and Evaluations .......................................................................................... 8 
      Financial Management .................................................................................................................................8 
      Information Technology..............................................................................................................................10 
      Programs and Operations ..........................................................................................................................10 
          Failed Bank Reviews .............................................................................................................................10 
          Nonmaterial Loss Reviews ....................................................................................................................16 
          Other Performance Audits .....................................................................................................................17 
Significant Investigations ........................................................................................................ 18 
          New Initiatives .......................................................................................................................................18 
          Investigations.........................................................................................................................................18 
Other OIG Accomplishments and Activity ............................................................................. 22 
Statistical Summary ................................................................................................................. 25 
      Summary of OIG Activity ............................................................................................................................25 
      Significant Unimplemented Recommendations ..........................................................................................25 
      Summary of Instances Where Information Was Refused ...........................................................................27 
      Listing of Audit Products Issued .................................................................................................................27 
      Audit Reports Issued With Questioned Costs ............................................................................................29 
      Audit Reports Issued With Recommendations That Funds Be Put to Better Use ......................................29 
      Previously Issued Audit Reports Pending Management Decisions (Over 6 Months) .................................29 
      Significant Revised Management Decisions ..............................................................................................30 
      Significant Disagreed Management Decisions ...........................................................................................30 
      Peer Reviews .............................................................................................................................................30 
Bank Failures and Non-Material Loss Reviews ..................................................................... 32 
References to the Inspector General Act ............................................................................... 36 
Abbreviations ............................................................................................................................ 37 
This page intentionally left blank.
                                                      for Investigations, performs investigations and
Overview of the Office of                             conducts initiatives to detect and prevent fraud,
Inspector General                                     waste, and abuse in Treasury programs and
                                                      operations under our jurisdiction. It also
The Department of the Treasury’s Office of            manages the Treasury OIG Hotline to facilitate
Inspector General (OIG) was established               reporting of allegations involving Treasury
pursuant to the 1988 amendments to the                programs and activities.
Inspector General Act of 1978. OIG is headed
by an Inspector General appointed by the              The Office of Counsel, under the leadership of
President, with the advice and consent of the         the Counsel to the Inspector General, provides
Senate. Serving with the Inspector General in         legal advice to the Inspector General and all
the immediate office is a Deputy Inspector            OIG components. The office represents the
General. OIG performs independent, objective          OIG in all legal proceedings and provides a
reviews of Treasury programs and operations,          variety of legal services including, (1) processing
except for those of the Internal Revenue Service      all Freedom of Information Act and Giglio
(IRS) and the Troubled Asset Relief Program           requests, (2) conducting ethics training,
(TARP), and keeps the Secretary of the                (3) ensuring compliance with financial
Treasury and Congress fully informed of               disclosure requirements, (4) reviewing proposed
problems, deficiencies, and the need for              legislation and regulations, and (5) reviewing
corrective action. The Treasury Inspector             administrative subpoenas.
General for Tax Administration performs
oversight related to IRS. A Special Inspector         The Office of Management provides services to
General and the Government Accountability             maintain the OIG administrative infrastructure.
Office perform oversight related to TARP.             The Assistant Inspector General for
                                                      Management oversees these functions.
OIG has four divisions: (1) Office of Audit,
(2) Office of Investigations, (3) Office of           As of September 30, 2010, OIG had 158 full-
Counsel, and (4) Office of Management. OIG is         time staff. OIG’s fiscal year 2010 appropriation
headquartered in Washington, DC, and has an           was $29.7 million.
audit office in Boston, Massachusetts.

The Office of Audit performs and supervises
audits, attestation engagements, and evaluations.
The Assistant Inspector General for Audit has
two deputies. One is primarily responsible for
performance audits, and the other is primarily
responsible for financial management,
information technology, and financial assistance
audits.

The Office of Investigations, under the
leadership of the Assistant Inspector General


          Treasury Office of Inspector General Semiannual Report—September 2010                         1
                                                      Dodd-Frank also established the Financial
Treasury Management and                               Stability Oversight Council (FSOC), and the
Performance Challenges                                Council of Inspectors General on Financial
                                                      Oversight (CIGFO). The mission of FSOC,
In accordance with the Reports Consolidation          which is chaired by the Treasury Secretary, is to
Act of 2000, the Treasury Inspector General           identify risks to financial stability that could
annually provides the Secretary of the Treasury       arise from the activities of large, interconnected
with his perspective on the most serious              financial companies; respond to any emerging
management and performance challenges facing          threats to the financial system; and promote
the Department. The Secretary includes these          market discipline. CIGFO, which is chaired by
challenges in Treasury’s annual agency financial      the Treasury Inspector General, facilitates
report. In a memorandum to Secretary Geithner         information sharing among inspectors general
dated October 22, 2010, Inspector General             with a focus on reporting concerns that may
Thorson reported four management and                  apply to the broader financial sector and ways
performance challenges. The following is an           to improve financial oversight. Accordingly,
abridged description of the challenges.               CIGFO will be an important source of
                                                      independent, unbiased analysis to FSOC. In the
Transformation of Financial Regulation                future, CIGFO may also vote to convene a
                                                      working group to evaluate the effectiveness and
In response to the need for stronger financial        internal operations of FSOC.
regulation and reform, Congress passed the
Dodd-Frank Wall Street Reform and Consumer            Dodd-Frank established two new offices within
Protection Act (Dodd-Frank) in July 2010.             Treasury: the Office of Financial Research and
Dodd-Frank established new responsibilities for       the Federal Insurance Office. The Office of
Treasury and created new offices to fulfill those     Financial Research is to be a data collection,
responsibilities.                                     research, and analysis arm of FSOC. The
                                                      Federal Insurance Office is to monitor the
A critical challenge in the near term is              insurance industry, including identifying gaps or
Treasury’s role in standing up the Bureau of          issues in the regulation of insurance that could
Consumer Financial Protection. When a                 contribute to a systemic crisis in the insurance
Director is confirmed, the bureau will become         industry or financial system.
an independent bureau of the Board of
Governors of the Federal Reserve System. In           Intended to streamline the supervision of
the interim, Treasury is charged with supporting      depository institutions and holding companies,
the creation and management of the Bureau of          Dodd-Frank requires the transfer of the powers
Consumer Financial Protection and, to that end,       and duties of the Office of Thrift Supervision
much needs to be done. While the bureau               (OTS) to the Office of the Comptroller of the
remains in Treasury, it will be subject to our        Currency (OCC), the Board of Governors of
audit and investigative oversight. We are,            the Federal Reserve System, and the Federal
however, coordinating those oversight efforts         Deposit Insurance Corporation (FDIC) no later
with the OIG of the Board of Governors of the         than July 2011. Our office, the FDIC OIG, and
Federal Reserve System.                               the Board of Governors of the Federal Reserve


          Treasury Office of Inspector General Semiannual Report—September 2010                        2
                                             Treasury Management and Performance Challenges

System OIG are required by Dodd-Frank to              commercial real estate and overreliance on
jointly oversee and periodically report on the        unpredictable brokered deposits to fund rapid
transfer of OTS functions.                            growth.

Clearly, the intention of Dodd-Frank is most          Recently, the unprecedented speed at which
notably to prevent, or at least minimize, the         servicers were foreclosing on defaulted
impact of a future financial sector crisis on the     mortgages has revealed flaws in the processing
U.S. economy. In order to accomplish this,            of those foreclosures. A number of the largest
Dodd-Frank has placed a great deal of                 banks with servicing functions have voluntarily
responsibility within Treasury and on the             placed moratoriums on foreclosures either in
Treasury Secretary. The management challenge          certain states or nationwide until these matters
from our perspective is to implement an               are resolved. While the depth and extent of
effective FSOC process supported by the newly         these problems are not yet fully known, this is
created offices within Treasury and the               yet another troubling development in the
streamlined banking regulatory structure that         manner in which financial institutions have been
timely identifies and strongly responds to            operating. Addressing this issue could be the
emerging risks. This is especially important in       first major challenge for FSOC.
times of economic growth and financial
institution profitability when such government        Management of Treasury’s Authorities
action is likely to be unpopular. Our work plans
                                                      Intended to Support and Improve the
will include reviews of Treasury’s effectiveness
in establishing the new offices and undertaking       Economy
its other critical roles.
                                                      Congress provided Treasury with broad
                                                      authorities to address the financial crisis under
The other regulatory challenges that we
                                                      the Housing and Economic Recovery Act and
previously reported remain. Specifically, since
                                                      the Emergency Economic Stabilization Act,
September 2007, 90 Treasury-regulated financial
                                                      both enacted in 2008, the American Recovery
institutions have failed, with estimated losses to
                                                      and Reinvestment Act of 2009 (Recovery Act),
the Deposit Insurance Fund of approximately
                                                      and the Small Business Jobs Act of 2010.
$36 billion. Although many factors contributed
                                                      Certain authorities in the Housing and
to the turmoil in the financial markets, our work
                                                      Economic Recovery Act and the Emergency
found that OCC and OTS did not identify early
                                                      Economic Stabilization Act have now expired,
or force timely correction of unsafe and
                                                      but challenges still remain in managing
unsound practices by numerous institutions
                                                      Treasury’s outstanding investments. To an
under their supervision. The irresponsible
                                                      extent, Treasury’s program administration under
lending practices of many institutions are now
                                                      these two acts has matured. In contrast,
well-recognized—including reliance on risky
                                                      program administration for the Recovery Act is
products, such as option adjustable rate
                                                      still evolving, and the Small Business Jobs Act
mortgages (ARM), and degradation of
                                                      programs must be stood up. The following
underwriting standards. At the same time,
                                                      discussion begins with the most recent act
financial institutions engaged in other high-risk
                                                      passed to support and improve the economy
activities, including high asset concentrations in


          Treasury Office of Inspector General Semiannual Report—September 2010                       3
                                               Treasury Management and Performance Challenges

and moves on to the other new programs for              institutions comply with the terms and
which Treasury is responsible.                          conditions of the investments, to include
                                                        validation of increased small business lending in
Management of the Small Business Lending Fund           return for reduced dividend rates on Treasury
and State Small Business Credit Initiative              investments.

In late September 2010, Congress enacted the            Treasury has announced individual SSBCI
Small Business Jobs Act. It created within              funding allocations totaling $1.5 billion for the
Treasury a $30 billion Small Business Lending           50 states, the District of Columbia, and U.S.
Fund (SBLF) and provided $1.5 billion to be             territories, intended to support new small
allocated by Treasury to states for eligible state      business lending through local programs. A key
programs through the State Small Business               feature of SSBCI is that participating states
Credit Initiative (SSBCI). The act is intended to       receive their allocations in increments of one-
increase lending to small business and thereby          third each. Treasury may withhold a successive
support job creation. The challenge for                 increment to a state pending the results of an
Treasury will be to get these two programs up           audit by our office.
and running quickly while maintaining proper
control to ensure transparency, equitable               Management of Recovery Act Programs
treatment of all participants, and program
results.                                                Treasury is responsible for overseeing an
                                                        estimated $150 billion of Recovery Act funding
Under SBLF, Treasury will make capital                  and tax relief. Treasury’s oversight
investments in eligible financial institutions after    responsibilities include grants for specified
consultation with the institution’s regulator.          energy property in lieu of tax credits, grants to
Eligible institutions are permitted to refinance        states for low-income housing projects in lieu of
securities issued to Treasury under TARP’s              tax credits, increased Community Development
Capital Purchase Program as long as they are            Financial Institutions Fund grants and tax
current on their purchase program obligations.          credits, economic recovery payments to social
During the first 4½ years of Treasury’s                 security beneficiaries and others, and payments
investment, participating institutions initially pay    to U.S. territories for distribution to their
dividends to Treasury of 5 percent, but that rate       citizens.
may be reduced to as low as 1 percent (after 4½
years, the dividend rate increases to 9 percent         Many of these programs were new to Treasury
and Treasury’s investment is expected to be             in 2009 and involve very large dollar amounts. It
repaid within 10 years).                                is estimated that Treasury’s Recovery Act
                                                        payments in lieu of tax credit programs—for
It is important that a strong control structure         specified energy property and to states for low-
along with commensurate staffing be provided            income housing projects—will cost more than
on the front end of this effort. It is also critical    $20 billion. To date, Treasury has awarded more
in setting up this program that Treasury build          than $6 billion under these programs and has
on its experience with the Capital Purchase             yet to implement comprehensive monitoring
Program. Furthermore, Treasury and regulators           procedures. In 2009, we reported that Treasury
must coordinate to ensure that participating            had dedicated only a small number of staff to

           Treasury Office of Inspector General Semiannual Report—September 2010                        4
                                               Treasury Management and Performance Challenges

award and monitor these funds. That has not             domestic and world financial markets.
changed, and we continue to have concerns that          Treasury’s Office of Financial Stability
the current staffing level is not commensurate          administers TARP and through several of its
with the size of these programs. Payments made          programs purchased direct loans and equity
to recipients under the specified energy                investments in many large financial institutions
property program alone represent more than              and other businesses and, guaranteed other
$5 billion of the funds awarded to date, and the        troubled mortgage-related and financial assets.
number of applicants continues to grow.                 On October 3, 2010, the authority to make new
                                                        investments under the TARP program expired.
Management of the Housing and Economic                  Treasury will, however, continue making
Recovery Act and the Emergency Economic                 payments for programs with existing contracts
Stabilization Act                                       and commitments. TARP is expected to be less
                                                        costly than first thought. Treasury has recently
Under the Housing and Economic Recovery                 estimated that the total cost of TARP will be
Act, Treasury continues to address the                  about $50 billion. As the life-cycle of TARP
distressed financial condition of Fannie Mae            matures, Treasury’s challenge in this area is
and Freddie Mac which are under the                     morphed from standing up and running TARP
conservatorship of the Federal Housing Finance          programs to winding them down. Therefore,
Agency. To cover the continuing losses of the           Treasury must now focus on managing and
two entities and to maintain their positive net         exiting from its current TARP investments.
worth, Treasury agreed to purchase senior
preferred stock in Fannie Mae and Freddie Mac.          Anti-Money Laundering and Terrorist
As of June 30, 2010, Treasury had purchased
                                                        Financing/Bank Secrecy Act
$145 billion of senior preferred stock in the two
entities. Treasury also purchased and is still          Enforcement
holding $184 billion of mortgage-backed                 Treasury faces unique challenges in carrying out
securities issued by Fannie Mae and Freddie             its responsibilities under the Bank Secrecy Act
Mac under a temporary purchase program that             (BSA) and USA Patriot Act to prevent and
expired in December 2009. Even with this                detect money laundering and terrorist financing.
assistance, both entities remain in a weakened          The Financial Crimes Enforcement Network
financial condition and may require prolonged           (FinCEN) is the Treasury bureau responsible
assistance. Dodd-Frank requires the Secretary of        for administering BSA. However, a large
the Treasury to conduct a study on ending the           number of other federal and state entities
conservatorship of Fannie Mae and Freddie               participate in efforts to ensure compliance with
Mac and minimizing the cost to taxpayers. This          BSA, including the five federal banking
study is to be presented to Congress no later           regulators, the IRS, the Securities and Exchange
than January 31, 2011.                                  Commission, the Department of Justice, and
                                                        state regulators. Many of these entities also
TARP, established under the Emergency                   participate in efforts to ensure compliance with
Economic Stabilization Act, gave Treasury the           U.S. foreign sanctions programs administered
authorities necessary to bolster credit availability    by Treasury’s Office of Foreign Assets Control
and address other serious problems in the               (OFAC).


           Treasury Office of Inspector General Semiannual Report—September 2010                       5
                                               Treasury Management and Performance Challenges

                                                        that issue, redeem, or sell prepaid (or stored
Treasury must coordinate the efforts of these           value) cards.
multiple entities. To this end, FinCEN and
OFAC have entered into memoranda of                     In September 2010, to add transparency to
understanding with many federal and state               possible illicit wire transfer use of the financial
regulators in an attempt to build a consistent          system, FinCEN proposed a regulatory
and effective process. While they are important         requirement for certain depository institutions
to promote coordination and cooperation, these          and money services businesses to report cross-
instruments are nonbinding and carry no                 border electronic transmittals of funds. The
penalties for violations, and their overall             purpose of this proposal is to establish a
effectiveness has not been independently                centralized database that will assist law
assessed. Furthermore, the USA Patriot Act has          enforcement in detecting and ferreting out
increased the types of financial institutions           transnational organized crime, multinational
required to file BSA reports. In fiscal year 2009,      drug cartels, terrorist financing, and
financial institutions filed approximately 15           international tax evasion. If this proposal is
million BSA reports. FinCEN needs to work               implemented, ensuring that financial institutions
with regulators to ensure that financial                comply with the cross-border electronic
institutions establish effective BSA compliance         transmittals of funds reporting requirements
programs and file BSA reports, as required.             and managing the database will be significant
                                                        challenges.
Adding to this risk in the current environment
is that financial institutions and their regulators     Management of Capital Investments
may have decreased their attention to BSA and
OFAC program compliance as they address                 Managing large capital investments, particularly
safety and soundness concerns during the                information technology investments, is a
current economic crisis.                                difficult challenge for any organization, public
                                                        or private. In prior years, we reported on a
FinCEN also has a particularly difficult                number of capital investment projects that had
challenge in dealing with money services                either failed or had serious problems. This year,
businesses. FinCEN has been working with IRS            we identified challenges in four ongoing
to ensure that these businesses comply with             investments, two of which were identified by
BSA registration and report-filing requirements.        the Office of Management and Budget (OMB)
IRS serves as the examining agency for these            as high-risk projects.
businesses but does not have the resources
necessary to annually inspect all money services        Replacement telecommunications platform
businesses or even identify unregistered money
services businesses, estimated to be in the tens        OMB rated Treasury’s Information Technology
of thousands. Within this framework, FinCEN             Infrastructure Telecommunications investment,
has been concerned with money services                  with an overall value of $3.7 billion, as high-risk.
businesses that use informal value transfer             Treasury’s Acting Chief Information Officer
systems and with money services businesses              rated it as poorly performing.




           Treasury Office of Inspector General Semiannual Report—September 2010                          6
                                             Treasury Management and Performance Challenges

Common identity management system

OMB identified Treasury’s Consolidated
Enterprise Identity Management system as a
high-risk project. This system is a $147 million
effort to implement the requirements of
Homeland Security Presidential Directive 12.
The system has also been identified as being
more than $40 million over budget and
significantly behind schedule.

Data center consolidation

OMB began the Federal Data Center
Consolidation Initiative to consolidate the
number of federal data centers. Treasury has
over 60 data centers around the country.
Treasury plans to ultimately reduce the number
of its data centers by 2015. This reduction
would require Treasury to restructure its
information technology (IT) infrastructure over
a relatively short time.

BSA IT modernization

Treasury, through FinCEN, is undertaking a
major project known as BSA IT Modernization.
Already underway, the project is expected to
cost about $120 million. A prior attempt, from
2004 to 2006, to develop a new BSA system
ended in failure with over $17 million wasted
because of shortcomings in project planning,
management, and oversight.

Treasury’s decentralized management of IT
investments presents a significant hurdle to the
successful implementation of major
department-wide and government-wide
initiatives.




          Treasury Office of Inspector General Semiannual Report—September 2010           7
                                                                                                                                                         Significant Audits and Evaluations

                                                                                                                                                 Treasury and OMB–designated entities. In this
Significant Audits and                                                                                                                           regard, OMB has designated IRS for annual
Evaluations                                                                                                                                      financial statement audits. The financial
                                                                                                                                                 statements of certain other Treasury component
Financial Management                                                                                                                             entities are audited pursuant to other
                                                                                                                                                 requirements due to their materiality to
Financial Audits                                                                                                                                 Treasury’s consolidated financial statements, or
                                                                                                                                                 for other reasons. The following table shows
The Chief Financial Officers Act, as amended                                                                                                     audit results for fiscal years 2009 and 2008.
by the Government Management Reform Act,
requires annual financial statement audits of

Treasury-audited financial statements and related audits

Entity                                                       Fiscal year 2009 audit results                                                              Fiscal year 2008 audit results

                                                                                            Material                       Other                                        Material         Other
                                                                                            weak-                          significant                                  weak-            significant
                                                             Opinion                        nesses                         deficiencies                  Opinion        nesses           deficiencies
Government Management Reform Act/Chief Financial Officers Act requirements
Department of the Treasury                                                       UQ                              2                                   2             UQ                1                      2
Internal Revenue Service (A)                                                     UQ                              2                                   0             UQ                3                      1
Other required audits
Department of the Treasury’s Special-
Purpose Financial Statements                                                      Q                              1                                   0          UQ                   0                    1
Office of Financial Stability (TARP) (A)                                         UQ                              0                                   2          N/A                N/A                  N/A
Bureau of Engraving and Printing                                                 UQ                              0                                   0             UQ                0                      0
Community Development Financial
Institutions Fund (B)                                                            UQ                              0                                   3             UQ                0                      2
Office of DC Pensions                                                            UQ                              0                                   0             UQ                0                      0
Exchange Stabilization Fund                                                      UQ                              0                                   1             UQ                1                      1
Federal Financing Bank                                                           UQ                              0                                   0             UQ                0                      0
Office of the Comptroller of the
Currency                                                                         UQ                              0                                   0             UQ                0                      0
Office of Thrift Supervision                                                     UQ                              0                                   0             UQ                0                      0
Treasury Forfeiture Fund                                                         UQ                              0                                   0             UQ                0                      0
Mint
      Financial statements                                                       UQ                              0                                   0             UQ               0                       2
      Custodial gold and silver reserves                                         UQ                              0                                   0             UQ               0                       0
Other audited accounts that are material to Treasury financial statements
Bureau of the Public Debt
Schedule of Federal Debt (A)                                                     UQ                              0                                   0             UQ               0                       0
Government trust funds                                                           UQ                              0                                   0             UQ               0                       1
Financial Management Service
      Treasury-managed accounts                                                  UQ                              0                                   1             UQ               0                       1
      Operating cash of the federal
      government                                                                 UQ                              0                                   1             UQ               0                       0
Management-initiated audit
FinCEN                                                                           UQ                              0                                   0             UQ               0                       0
Alcohol and Tobacco Tax and Trade
Bureau (C)                                                                       UQ                              2                                   0          N/A                N/A                  N/A
UQ       Unqualified opinion
Q        Qualified opinion due to omission of a required disclosure and misstatement of certain account balances in the financial statement notes
(A)      Audited by the Government Accountability Office
(B)      Full-scope audit of financial statements for fiscal year 2009, audit of the Statement of Financial Position only for fiscal year 2008
(C)      Audit of balance sheet only 2008
N/A      Entity was not audited




                          Treasury Office of Inspector General Semiannual Report—September 2010                                                                                                         8
                                                                                              Significant Audits and Evaluations

Audits of the fiscal year 2010 financial                                          reported in connection with the audit of the
statements or schedules of the Department and                                     Department’s fiscal year 2009 consolidated
component reporting entities were in progress                                     financial statements. The status of these areas of
at the end of this semiannual reporting period.                                   noncompliance, including progress in
                                                                                  implementing remediation plans, will be
The following instances of noncompliance with                                     evaluated as part of the audit of Treasury’s fiscal
the Federal Financial Management                                                  year 2010 financial statements.
Improvement Act, which all relate to IRS, were

                                                                                                                            Type of
Condition                                                                                                                   noncompliance
Core general ledger system does not conform to Federal Financial Management System Act Requirements contained               Federal financial
in OMB Circular A-127, Financial Management Systems. (first reported in fiscal year 1997)                                   management systems
                                                                                                                            requirements
Material weaknesses in internal control over information security continue to threaten (1) the integrity of the financial   Federal financial
statements and the accuracy and availability of financial information needed to support day-to-day decision making          management systems
and (2) the confidentiality of proprietary information. (first reported in fiscal year 1997)                                requirements
Automated systems for tax-related transactions did not support the net taxes receivable amount on the balance sheet         Federal accounting
and other required supplemental information related to uncollected taxes–compliance assessments and write-offs in           standards
accordance with Statement of Federal Financial Accounting Standards No. 7, Accounting for Revenue and Other
Financing Sources and Concepts for Reconciling Budgetary and Financial Accounting. (first reported in fiscal year
1997)
IRS’s core general ledger system for tax-related activities does not comply with the U.S. Government Standard               U.S. Government
General Ledger at the transaction level and also does not post transactions in conformance with Standard General            Standard General Ledger
Ledger posting models. (first reported in fiscal year 1997)


Four financial audits were completed during this                                  Reports on the Processing of Transactions by
semiannual reporting period.                                                      BPD

Audit of the Alcohol and Tobacco Tax and                                          Three reports described below were completed
Trade Bureau's Fiscal Year 2009 Balance Sheet                                     in support of the audit of Treasury’s fiscal year
                                                                                  2010 consolidated financial statements and the
KPMG LLP (KPMG), an independent public                                            financial statement audits of certain other
accounting firm (IPA) under our supervision,                                      federal agencies.
examined the Alcohol and Tobacco Tax and
Trade Bureau's fiscal year 2009 balance sheet                                     KPMG, under our supervision, examined the
and issued an unqualified opinion thereon.                                        accounting processing and general computer
KPMG identified two significant deficiencies                                      controls related to financial management
related to controls over (1) property                                             services provided to various federal agencies by
capitalization; and (2) accounts payable accruals,                                the Bureau of the Public Debt’s Administrative
testing and review of journal entry support, and                                  Resource Center. KPMG found that (1) the
review of allowances for accounts receivable,                                     description of controls for these activities fairly
which were considered material weaknesses.                                        presented, in all material respects, the controls
KPMG noted no instances of reportable                                             that had been placed in operation as of June 30,
noncompliance with laws and regulations                                           2010; (2) the controls were suitably designed;
tested. (OIG-10-041)                                                              and (3) the controls tested by KPMG were


               Treasury Office of Inspector General Semiannual Report—September 2010                                                              9
                                                               Significant Audits and Evaluations

effective from July 1, 2009, to June 30, 2010.
KPMG noted no instances of reportable                  Bureau of the Public Debt Successfully
noncompliance with laws and regulations                Demonstrated Recovery of the Authentication
tested. (OIG-10-047)                                   Services for the Fiscal Services Certificate
                                                       Authority System
KPMG, under our supervision, performed
examinations that covered the general computer         We found that Bureau of the Public Debt
and investment/redemption processing controls          successfully demonstrated disaster recovery
related to Bureau of the Public Debt’s                 capability for the Authentication Services of the
transactions processing of investment accounts         Fiscal Services Certificate Authority system in
for various federal agencies and the general           January 2010. During the test, the bureau
computer and trust fund management                     successfully recovered the system at an alternate
processing controls related to the bureau’s            location, tested the functionality of the
transactions processing of investment accounts         certification authority, and restored service at
of various federal and state agencies. KPMG            the primary location. (OIG-10-039)
found that (1) the bureau’s description of these
controls fairly presented, in all material respects,
the controls that had been placed in operation
as of July 31, 2010; (2) the controls were             Programs and Operations
suitably designed; and (3) the controls tested by      Failed Bank Reviews
KPMG were effective during the period
August 1, 2009, to July 31, 2010. KPMG noted           OCC and OTS regulate and supervise many of
no instances of reportable noncompliance with          the nation’s largest banks and thrifts. OCC
the laws and regulations tested. (OIG-10-048,          regulates national chartered banks, and OTS
OIG-10-049)                                            regulates thrifts.

                                                       In 1991, Congress enacted the Federal Deposit
                                                       Insurance Corporation Improvement Act
Information Technology                                 amending the Federal Deposit Insurance Act.
                                                       The law was enacted following the failures of
                                                       about a thousand banks and thrifts from 1986
Fiscal Year 2010 Audit of Treasury’s FISMA             to 1990, which resulted in billions of dollars in
Implementation for Its Intelligence Systems
                                                       losses to the FDIC’s Deposit Insurance Fund.
The Federal Information Security Management            The amendments require that banking
Act (FISMA) requires an annual independent             regulators take specified supervisory actions
evaluation of Treasury’s information security          when they identify unsafe or unsound practices
program and practices. During this semiannual          or conditions.
period, we performed an audit to determine the
adequacy of the information security program           Section 38(k) of the act requires that the
and practices for Treasury’s intelligence systems      Inspector General for the primary federal
and noted that improvement is needed. Our              regulator of a failed financial institution conduct
report is classified. (OIG-10-046)                     a material loss review (MLR) when the
                                                       estimated loss to the Deposit Insurance Fund is

         Treasury Office of Inspector General Semiannual Report—September 2010                         10
                                                                      Significant Audits and Evaluations

“material.” As part of the MLR, we determine                  From the beginning of the current economic
the causes of the failure and assess the                      crisis in 2007 through September 30, 2010,
supervision of the institution, including the                 FDIC and other banking regulators closed 294
implementation of the prompt corrective action                banks and thrifts. Eighty-nine of these
provisions of the act. 1 As appropriate, we also              institutions were regulated by Treasury. Of
make recommendations for preventing any such                  these 89 failures 37 did not result in a material
loss in the future.                                           loss to the Deposit Insurance Fund, so an MLR
                                                              was not required. In prior semiannual reports,
Prior to the enactment of Dodd-Frank in July                  we reported on 17 MLRs completed during the
2010, the Federal Deposit Insurance                           current crisis. During this semiannual reporting
Corporation Improvement Act defined a                         period, we completed 4 MLRs, 2 for OCC
material loss as a loss to the Deposit Insurance              supervised institutions and 2 for OTS. We also
Fund that exceeded the greater of $25 million or              completed a joint evaluation with the FDIC
2 percent of the institution’s total assets. Dodd-            OIG of Washington Mutual Bank (WaMu).
Frank has redefined the threshold loss amount                 These reviews are described in more detail
to the Deposit Insurance Fund triggering a                    below. As of the end of the reporting period,
material loss review to a loss that exceeds                   we had the remaining 31 MLRs in progress.
$200 million for 2010 and 2011, $150 million
for 2012 and 2013, and $50 million for 2014                   From the evaluation of the WaMu failure and
and thereafter (with a provision to temporarily               the 21 MLRs that we have completed during the
raise the threshold to $75 million in certain                 current economic crisis, we have seen a number
circumstances). The act also requires a review of             of trends emerge. With respect to the causes of
all bank failures with losses under these                     institutions’ failures, we found poor
threshold amounts for the purposes of                         underwriting and overly aggressive growth
(1) ascertaining the grounds identified by OCC                strategies fueled by volatile and costly wholesale
or OTS for appointing FDIC as receiver and                    funding (e.g., brokered deposits, Federal Home
(2) determining whether any unusual                           Loan Bank loans); risky lending products such
circumstances exist that might warrant a more                 as option ARMs; high asset concentrations to
in-depth review of the loss. This provision                   include commercial real estate loans; and
applies to bank failures from October 1, 2009,                inadequate risk management systems. In
forward.                                                      addition, the management and boards of these
                                                              institutions were often not effective in
                                                              monitoring and managing their risks. The
                                                              economic recession and the decline in the real
                                                              estate market were also factors in most of the
1 Prompt corrective action is a framework of supervisory
actions for insured institutions that are not adequately      failures.
capitalized. It was intended to ensure that action is taken
when an institution becomes financially troubled in order     With respect to OCC’s and OTS’s supervision,
to prevent a failure or minimize resulting losses. These
actions become increasingly severe as the institution falls   we found that the regulators conducted regular
into lower capital categories. The capital categories are     and timely examinations and identified
well-capitalized, adequately capitalized, undercapitalized,   operational problems, but were slow to take
significantly undercapitalized, and critically
undercapitalized.                                             timely and aggressive enforcement action. We


           Treasury Office of Inspector General Semiannual Report—September 2010                             11
                                                              Significant Audits and Evaluations

also found that in rating these institutions,         lending strategy that included liberal
examiners gave too much weight to the fact that       underwriting standards and inadequate risk
the institutions were profitable and their loans      controls. WaMu’s high-risk strategy, combined
were performing and not enough weight given           with the housing and mortgage market collapse
to the amount of risk that these institutions had     in mid-2007, left WaMu with loan losses,
taken on. We also noted that regulators took the      borrowing capacity limitations, and a falling
appropriate prompt corrective action actions          stock price. In September 2008, depositors
when warranted but those actions did not save         withdrew significant funds after high-profile
the institutions. While it is too soon to             failures of other financial institutions and
comment on the general effectiveness of the           rumors of WaMu’s problems. WaMu was
prompt corrective action provisions of the            unable to raise capital to keep pace with
Federal Deposit Insurance Corporation                 depositor withdrawals, prompting OTS to close
Improvement Act, this is an area we plan to           the institution.
examine further.
                                                      OTS’s examinations of WaMu identified
OTS-Regulated Institutions Reviewed                   concerns with WaMu’s high-risk lending
                                                      strategy, including repeat findings concerning
Federal Regulatory Oversight of Washington            WaMu’s single family loan underwriting,
Mutual Bank of Seattle, Washington (closed            management weaknesses, and inadequate
September 25, 2008; estimated loss to the             internal controls. However, OTS’s supervision
Deposit Insurance Fund – none at this time)           did not ensure that WaMu corrected those
                                                      problems early enough to prevent a failure of
We conducted a joint evaluation with the FDIC         the institution. Furthermore, OTS largely relied
OIG of the failure of WaMu, the largest bank          on a WaMu system to track the thrift’s progress
failure in U.S. history. On September 25, 2008,       in implementing corrective actions on hundreds
OTS, the thrift’s primary federal regulator,          of OTS examination findings. We concluded
closed WaMu and appointed FDIC as receiver.           that had OTS implemented its own independent
JPMorgan Chase & Co. acquired WaMu                    system for tracking those findings, OTS could
through an FDIC facilitated transaction that, so      have better assessed WaMu management’s
far, has resulted in no loss to the Deposit           efforts to take appropriate and timely action.
Insurance Fund. At the time of its closing,
WaMu had total assets of $307 billion. Because        We have made a number of recommendations
there was no loss to the Deposit Insurance            to OTS as a result of completed MLRs of failed
Fund, this review was not statutorily required.       thrifts during the current economic crisis. These
However, given WaMu’s size, the circumstances         recommendations pertain to taking more timely
leading up to WaMu’s sale, and other losses           formal enforcement action when circumstances
(e.g., shareholder equity), the Treasury Inspector    warrant, ensuring that CAMELS ratings are
General and the FDIC Inspector General                properly supported, reminding examiners of the
believed that a review was warranted.                 risks associated with rapid growth and high-risk
                                                      concentrations, ensuring thrifts have sound
We reported that WaMu failed primarily                internal risk management systems, ensuring
because of management’s pursuit of a high-risk        repeat conditions are reviewed and corrected,


         Treasury Office of Inspector General Semiannual Report—September 2010                      12
                                                                      Significant Audits and Evaluations

and requiring thrifts to hold adequate capital. 2             Material Loss Review of BankUnited, FSB of
OTS has taken or plans to take action in                      Coral Gables, Florida (closed May 21, 2009;
response to these recommendations.                            estimated loss to the Deposit Insurance Fund -
Additionally, OTS established a large bank unit               $4.9 billion)
to oversee regional supervision of institutions
with assets of more than $10 billion. In this                 The primary cause of BankUnited’s failure was a
report, we recommended that OTS use its own                   high-risk growth strategy with excessive
internal report of examination system to                      concentration in option ARMs without
formally track the status of examiner                         adequate controls to manage the associated
recommendations and related thrift corrective                 risks. Option ARMs are high-risk loans that
actions. OTS concurred with our                               feature, among other things, the possibility of
recommendation and has completed action to                    negative amortization and payment shock as
address it.                                                   rates reset. Deficient underwriting and credit
                                                              administration, combined with the rapid decline
Our report also made several observations                     in the real estate market, resulted in the
about FDIC’s role as the deposit insurer for                  deterioration of the thrift’s asset quality,
WaMu and included two recommendations to                      including a substantial volume of problem loans
the FDIC Chairman. (EVAL-10-002)                              and significant loan losses. In turn, these loan
                                                              losses significantly diminished earnings and
On April 16, 2010, the Treasury Inspector                     resulted in negative capital, and ultimately, the
General and the FDIC Inspector General                        failure of BankUnited.
testified about the results of the joint evaluation
of WaMu before the Permanent Subcommittee                     Regarding supervision, OTS did not impose
on Investigations of the Senate Committee on                  limits on or restrict BankUnited’s concentration
Homeland Security and Governmental Affairs.                   and growth in high-risk option ARMs. In
The testimony was part of the subcommittee’s                  addition, OTS did not adequately assess
hearing entitled Wall Street and the Financial                BankUnited’s underwriting practices, partly
Crisis: The Role of Bank Regulators.                          because it used inappropriate risk indicators to
(OIG-CA-10-006)                                               measure the performance of the loan portfolio
                                                              and relied on the thrift’s mitigating controls
                                                              which proved inadequate. Furthermore, OTS
                                                              did not identify or address the thrift’s inaccurate
                                                              risk-weighting of its loan assets. Inaccurate risk-
                                                              weighting can have the effect of misstating
                                                              capital ratios as it did in the case of BankUnited.
                                                              We also found that OTS improperly directed
2 CAMELS is an acronym for performance rating                 the thrift to backdate a capital infusion from its
components for financial institutions: Capital adequacy,      holding company. We concluded that OTS used
Asset quality, Management administration, Earnings,
Liquidity, and Sensitivity to market risk. Numerical values   its authority under prompt corrective action in a
range from 1 to 5, with 1 being the best rating and 5         timely manner as BankUnited’s capital levels
being the worst. Each institution is also assigned a          fell, but those actions did not prevent
composite rating based on an assessment of its overall
condition and level of supervisory concern.


           Treasury Office of Inspector General Semiannual Report—September 2010                              13
                                                                Significant Audits and Evaluations

BankUnited’s failure or a material loss to the          As a final note, we referred a number matters
Deposit Insurance Fund.                                 involving BankUnited’s financial reporting to
                                                        our Office of Investigations.
During our MLR, OTS completed an internal
failed bank review of BankUnited. It concluded          OTS concurred with our recommendations to
similarly to our review, that BankUnited’s              (1) implement the recommendations from its
deficient underwriting increased the credit risk        internal failed thrift review of BankUnited, and
of its option ARMs portfolio, contributing to its       (2) caution examiners to pay particular attention
failure. The internal review also found that there      to the risk-weighting of option ARMs and,
were objectionable practices which occurred at          going forward, ensure that decisions by thrifts
BankUnited in 2004, 2005, and 2006 that were            to risk-weight these loans at anything other than
not timely addressed by supervisory staff. The          100 percent be adequately justified. In this
internal review recommended that OTS                    regard, OTS agreed to issue clarifying guidance
emphasize to supervisory staff the importance           to thrifts and examiners as to those option
of timely identification of unsafe and unsound          ARMs that qualify for risk-weighting other than
practices and of a vigilant supervisory approach        100 percent. (OIG-10-042)
when evaluating the risks of new products.
                                                        Material Loss Review of Peoples Community
We have reported on excessive concentrations            Bank of West Chester, Ohio (closed July 31,
in option ARMs and a lack of strong                     2009; estimated loss to the Deposit Insurance
supervisory response in a number of our MLRs            Fund - $136 million)
during the current crisis. OTS issued guidance
to thrifts in July 2009 regarding asset and             Mayer Hoffman McCann P.C., an IPA firm,
liability concentrations and related risk               performed under our supervision, the MLR of
management practices. The guidance                      Peoples Community Bank (PCB). The IPA
reemphasizes important risk management                  found that PCB failed primarily because of large
practices and encourages financial institutions to      concentrations in higher risk commercial real
revisit existing concentration policies in light of     estate loans that resulted in large loan losses that
the environment. While we believe the guidance          led to the thrift having insufficient capital.
is better than what had been previously available       While pursuing aggressive growth, PCB’s board
to thrifts, it is too soon to tell whether it will be   and management did not establish adequate risk
effective at controlling risky concentrations           management systems to properly monitor and
going forward. Furthermore, there has been no           manage elevated risks in its loan portfolio. As a
recent update to examiner procedures that               result, when the real estate market began
identify a trigger point where concentrations are       deteriorating in 2006, PCB was exposed to rapid
excessive from a safety and soundness                   asset quality deterioration and corresponding
perspective or provide examiners a range of             losses that ultimately led to the thrift’s demise.
responses to address excessive concentrations.          OTS’s supervisory actions complied with its
This is an area we believe requires continued           guidance at the time. However, the aggregate
OTS management action.                                  limit for high-risk loans in place from 2004
                                                        through 2006 was too high to effectively reduce
                                                        PCB’s risk profile to a manageable level.


          Treasury Office of Inspector General Semiannual Report—September 2010                          14
                                                              Significant Audits and Evaluations

Furthermore, there was little examination             variety of subjects where common issues
guidance available during this time frame to          and/or concerns exist. OTS stated that it would
assist the examiners in their evaluation of the       continue to review the situation and work with
effectiveness of the limits set by PCB, which         regulatory partners to determine whether to
were proven to be excessive. As a result, OTS’s       propose legislation or change regulatory
supervision of PCB did not prevent a material         guidance for concentrations that pose an
loss to the Deposit Insurance Fund.                   unacceptable level of risk.

OTS conducted an internal failed bank review          As a final note, we referred possible fraudulent
of PCB and concluded that (1) supervision of          activities involving two PCB loan transactions
the thrift could have been improved in the area       to our Office of Investigations. (OIG-10-040)
of concentration limitations; (2) although
underwriting, administration, and monitoring          OCC-Regulated Institutions Reviewed
systems did improve between 2000 and 2004,
the thrift continued to originate aggressively        Material Loss Review of Vineyard Bank of
underwritten loans that placed a heavy reliance       Corona, California (closed July 17, 2009;
on continued strong collateral valuations in a        estimated loss to the Deposit Insurance Fund -
concentrated segment of the market; and (3) the       $597 million)
timing and nature of enforcement actions were
generally considered to be effective. The IPA’s       Vineyard failed because of significant losses in
report affirmed OTS’s first two findings. The         its commercial real estate loan portfolio.
IPA also agreed that the OTS’s supervisory            Vineyard pursued an aggressive growth strategy
actions complied with its guidance at the time;       beginning in 2001. Vineyard’s board and
however, its supervision did not prevent the          management, however, did not adequately
thrift’s failure.                                     control concentration risk or ensure that credit
                                                      underwriting and administrative controls were
The IPA recommended that OTS (1) ensure               adequate. The weak controls led to deterioration
that action is taken on the lessons learned and       in underwriting standards. These deficiencies
that the recommendations made from OTS’s              were made worse by the decline in the real
internal review are implemented and (2) work          estate market and borrowers’ inability to pay off
with its regulatory partners to determine             loans as they matured.
whether to propose legislation and/or change
regulatory guidance to establish limits or other      OCC’s supervision of Vineyard did not prevent
controls for concentrations that pose an              a material loss to the Deposit Insurance Fund.
unacceptable safety and soundness risk and            In May 2006, OCC approved Vineyard’s
determine an appropriate range of examiner            conversion to a nationally chartered bank after
responses to high risk concentrations. OTS            OCC conducted a pre-conversion examination
concurred with the first recommendation. With         to determine if the bank’s application for
respect to the second recommendation, OTS             charter conversion should be approved. During
responded that it works with other regulators         the examination, OCC examiners identified
and the Federal Financial Institutions                significant concerns with Vineyard’s high
Examination Council to develop guidance on a          concentration in commercial real estate loans.
                                                      Because of significant weaknesses identified by

         Treasury Office of Inspector General Semiannual Report—September 2010                       15
                                                              Significant Audits and Evaluations

OCC examiners during the pre-conversion               appropriate range of examiner responses to high
examination, we believe that OCC should have          risk concentrations. OCC responded that it
deferred approval of Vineyard’s conversion to a       works with other regulators to develop guidance
nationally chartered bank until those weaknesses      on a variety of subjects where common issues
had been addressed.                                   or concerns exist. Also, federal banking agencies
                                                      are in the process of evaluating a number of
We reaffirmed prior recommendations that              factors that contributed to current problems in
OCC (1) determine that banks seeking                  the banking industry and will consider what
conversions satisfactorily address significant        regulatory changes are needed. OCC also
deficiencies before approval, and (2) formalize       responded that although it was too early to
its process for second level reviews of charter       determine whether the final outcome of the
conversions. We did not make any new                  agencies’ deliberations will include changes in
recommendations in our MLR of Vineyard. In a          concentration limits or risk management
written response, OCC stated that appropriate         expectations, it offered assurances that OCC
steps have been taken to address the prior            will continue to study the situation and work
recommendations. (OIG-10-044)                         with other regulatory partners.
                                                      (OIG-CA-10-009)
Material Loss Review of Union Bank of Gilbert,
Arizona (closed August 14, 2009; estimated
                                                      Nonmaterial Loss Reviews
loss to the Deposit Insurance Fund -
$54.5 million)                                        During the semiannual reporting period, we
                                                      issued final reports on our reviews of three
Mayer Hoffman McCann P.C., performed                  failed thrifts with loss amounts that were less
under our supervision the MLR of Union Bank.          than $200 million, the current threshold
The IPA found that Union Bank failed primarily        triggering a material loss review. We determined
because of high commercial real estate                that there were no unusual circumstances
concentrations with a particular focus on             surrounding the thrifts’ failures or the
construction and land development loans in            supervision exercised by OTS. Accordingly, we
Arizona. Once the real estate market began            have determined that a more in-depth review of
declining, Union Bank was exposed to rapid            the thrifts’ failures by our office was not
asset quality deterioration and the losses            warranted. The thrifts we reviewed were
ultimately led to its demise. A stronger              (1) Turnberry Bank (closed July 16, 2010;
supervisory response by OCC was warranted to          estimated loss to the Deposit Insurance Fund -
address the high commercial real estate               $34.4 million), (2) Olde Cypress Community
concentrations.                                       Bank (closed July 16, 2010; estimated loss to the
                                                      Deposit Insurance Fund - $31.5 million), and
The IPA recommended that OCC work with its            (3) Bayside Savings Bank, FSB (closed July 30,
regulatory partners to determine whether to           2010; estimated loss to the Deposit Insurance
propose legislation and/or change regulatory          Fund - $16.2 million) (OIG-10-050,
guidance to establish limits or other controls for    OIG-10-051, OIG-10-052)
concentrations that pose an unacceptable safety
and soundness risk and to determine an


         Treasury Office of Inspector General Semiannual Report—September 2010                      16
                                                              Significant Audits and Evaluations

Other Performance Audits

OFAC Should Have Better and More Timely
Documented Its Review of Potential Sanctions
Violations

We assessed OFAC’s handling of potential
violations referred by a financial institution. Our
report details deficiencies in OFAC’s processes
and recommended corrective actions. The
report is Sensitive But Unclassified.
(OIG-10-045)




         Treasury Office of Inspector General Semiannual Report—September 2010                17
                                                      objective of this initiative is to bring to justice
Significant Investigations                            individuals who impede or defraud the
New Initiatives                                       regulatory oversight functions of Treasury’s
                                                      bank regulators. The intent of our collective
Check Forgery Insurance Fund                          efforts is to deter others contemplating similar
                                                      criminal activity and help maintain the public’s
In August 2010, the Office of Investigations          confidence in the nation’s financial systems.
embarked on an initiative involving the Check
Forgery Insurance Fund. The fund, established
in 1941, is a revolving fund administered by the
                                                      Investigations
Financial Management Service (FMS) to settle          Army Clerk Charged for Theft of Funds
claims of nonreceipt of U.S. Treasury checks.         Involving FMS EagleCash Card Program
The Check Forgery Insurance Fund ensures
that the intended payees, whose checks were           We were contacted by the U.S. Army Criminal
fraudulently negotiated, receive settlement in a      Investigation Command concerning an
timely manner. According to FMS, the fund has         allegation that an Army financial clerk stationed
disbursed an estimated $41.2 million over the         in Afghanistan used his official position to
last 2 years. FMS estimated that losses in excess     modify another soldier’s EagleCash Card
of $2.6 million dollars have been suffered due to     account to fraudulently obtain funds and goods.
suspected fraudulent activity.                        The EagleCash Card program is a stored value
                                                      card jointly managed by the U.S. Air Force, the
During this semiannual period, OIG special
                                                      U.S. Army, and FMS.
agents made three arrests as part of this new
initiative.                                           Our investigation revealed that the clerk, in his
                                                      normal course of duties, stole another soldier’s
We anticipate that this initiative will assist FMS    EagleCash card from a kiosk in Afghanistan.
with investigative and prosecutorial support
                                                      The clerk raised the limit and reset the personal
regarding improper claims made against the
                                                      identification number for the stolen EagleCash
Check Forgery Insurance Fund and deter
criminal activity involving U.S. Treasury checks.     card without the victim’s authorization. The
                                                      clerk then wired $10,000 from the victim’s
Bank Failure                                          personal bank account to the stolen EagleCash
                                                      Card, and made three purchases.
During this reporting period, based on referrals
from OIG auditors resulting from MLRs they            The clerk was charged by military prosecutors
performed of OCC or OTS regulated failed              under General Court Martial for dereliction of
banks, we opened several investigations. These        duty, theft of $10,000 under the Uniform Code
investigations are related to potentially             of Military Justice, and wire fraud under the
fraudulent acts that contributed to the banks’        U.S. Code. On September 27, 2010, the suspect
failures. In a number of cases, we have               pled guilty to all charges and was sentenced to
partnered with the OIGs of FDIC and the               30 days of confinement, reduction in rank, and
Board of Governors of the Federal Reserve             forfeiture of $964. In addition, he will receive an
System to conduct these investigations. The

         Treasury Office of Inspector General Semiannual Report—September 2010                          18
                                                                         Significant Investigations

Other Than Honorable Discharge from the               Misuse of Subordinates’ Time by U.S. Mint
military upon completion of his sentence.             Official

Treasury Official Sentenced for Selling               We received information from the Mint alleging
Controlled Substance                                  that a senior Mint official misused her official
                                                      position, creating a hostile work environment
Our office completed a joint investigation with       by abusing her authority and misusing
the Federal Bureau of Investigation involving a       subordinates’ time.
Treasury official who was observed selling
methamphetamines during an undercover                 Our investigation revealed that the Mint official
operation. A search and arrest warrant was            requested subordinate employees to perform
executed at his residence, where additional           work outside of their job description on her
controlled substances were seized along with          behalf. We also determined that there was an
three Treasury identification cards.                  appearance of abuse of authority by the Mint
                                                      official when asking staff to perform personal
The official was indicted, pled guilty, and           errands. In August 2010, we forwarded the
sentenced in the U.S. District Court for the          results of this matter to the Mint for
District of Columbia on two counts of violating       administrative action as it deems appropriate.
21 USC § 841, unlawful distribution of
methamphetamines.                                     Individual Arrested for Cashing a Stolen U.S.
                                                      Treasury Check
Acceptance of Gifts by OCC Examiner
                                                      Our office was contacted by FMS regarding a
Our office was contacted by OCC regarding             stolen U.S. Treasury check in Virginia. Our
violations of standards of conduct by an OCC          investigation revealed that an individual had
national bank examiner. The examiner allegedly        cashed the stolen check at a check cashing store
accepted golf fees and dinner from bank               using a counterfeit Virginia identification card.
executives during business hours while he was
the bank’s examiner-in-charge.                        After the suspect was identified, we obtained
                                                      and executed a felony arrest warrant issued by
Our investigation confirmed the allegations that      the Commonwealth of Virginia for grand
the OCC examiner accepted gratuities in the           larceny. The investigation is ongoing.
form of golf fees, played golf during official
duty hours, and recorded his official time and        Unauthorized Use of the Federal Express
attendance hours as working while playing golf        Mailing System by an FMS Employee
with bank employees. The U.S. Attorney’s
Office for the Southern District of Georgia           Our office completed an investigation involving
declined criminal prosecution in the matter. In       an FMS employee who misused the Federal
August 2010, we forwarded the results of this         Express Mailing System while on official duty.
matter to OCC for administrative action as it         During our investigation, the employee
deems appropriate.                                    admitted mailing personal documents by using
                                                      the FMS Federal Express Mailing System over a
                                                      period of 6 years.


         Treasury Office of Inspector General Semiannual Report—September 2010                         19
                                                                        Significant Investigations

                                                      The joint investigation substantiated the
The U.S. Attorney’s Office for the District of        allegation that the police officer did not reside
Maryland declined criminal prosecution of the         in the home for the required period. As a result,
FMS employee; therefore, the matter has been          U.S. Department of Housing and Urban
referred to FMS for administrative action as it       Development demanded that the police officer
deems appropriate.                                    return $36,900. The police officer did not
                                                      comply with the demand letter. The U.S.
Misuse of Government-Issued Badge and                 Attorney’s Office for the District of Maryland
Credentials by an OCC Official                        declined criminal prosecution of the police
                                                      officer; therefore, the matter has been referred
Our office completed an investigation                 to the Bureau of Engraving and Printing for
concerning allegations that an OCC official used      administrative action as it deems appropriate.
his government issued credentials and badge
inappropriately during a traffic incident. Our        Misuse of Government Time and Vehicle
investigation determined that the OCC official
violated Treasury policy by improperly                Our office completed an investigation involving
presenting his badge and credentials to a             an allegation that an employee of the Alcohol
Washington D.C. Metropolitan police officer           and Tobacco Tax and Trade Bureau, was using
and another individual during a traffic incident.     government work hours and a government-
                                                      owned vehicle for personal errands. Our
The U.S. Attorney’s Office for the District of        surveillance and subsequent interview of the
Columbia declined criminal prosecution of the         employer substantiated the allegation.
OCC official; therefore, the matter has been
referred to OCC for administrative action as it       The U.S. Attorney’s Office for the District of
deems appropriate.                                    Florida declined criminal prosecution of the
                                                      employee; therefore, the matter has been
Misuse of Position for Personal Gain by Bureau        referred to the bureau for administrative action
of Engraving and Printing Police Officer              as it deems appropriate.

We completed an investigation concerning
                                                      Misuse of OTS Resources to Solicit Prostitution
allegations that a Bureau of Engraving and
Printing police officer used his public office for    We investigated an OTS official’s alleged misuse
private gain and neglected his basic financial        of OTS IT resources to solicit prostitution. The
obligations of public service. It was alleged that    official admitted to communicating with
the police officer violated the terms of the U.S.     prostitutes using OTS email, meeting with
Department of Housing and Urban                       prostitutes locally and while on official travel,
Development Federal Housing Administration            and using an OTS-issued travel card for non-
Officer and Teacher Next Door Sales Program.          official purposes. The U.S. Attorney’s Office for
Under this program, police officers are able to       the District of Columbia declined criminal
purchase a home at a discounted value if they         prosecution of the OTS official and he retired
use the property as their primary residence for       during the course of the investigation.
at least 3 years.



         Treasury Office of Inspector General Semiannual Report—September 2010                       20
                                                                        Significant Investigations

Contracting Issues at the U.S. Mint in San            FMS employees to attend a professional
Francisco                                             conference in which the senior official received
                                                      compensation for presenting at the conference.
Our office completed an investigation involving
improper contracting practices at the San             Update
Francisco Mint. The investigation found that a
contracting officer was negligent in his duties       The senior FMS official received a 2-day
for the following reasons: (1) he did not always      suspension for soliciting, approving, and
conduct market research on companies before a         utilizing government funds to register FMS
contract was awarded, (2) he failed to obtain         employees for the training conference.
necessary documentation throughout the
procurement process, (3) he provided
information to a contractor during bid
solicitations, and (4) he entered information
inappropriately into a federal government
acquisition database. The investigation revealed
that the contracting officer also did not have the
required training that had been previously
recommended in an audit conducted by the
Office of the Procurement Executive.

The investigation also found that a contractor
over-billed the Mint $25,276 for work hours
when the contractor was not present at the Mint
in accordance with the contract. The U.S.
Attorney’s Office in the Northern District of
California declined prosecution in the matter.
The matter has been referred to the Mint for
reclamation.


The following is an update to a significant
investigative activity reported in a prior
semiannual report.

Abuse of Official Government Position by an
FMS Official

As previously reported, our office conducted an
investigation which determined that a senior
FMS official violated criminal law and Treasury
policy by soliciting and approving numerous


         Treasury Office of Inspector General Semiannual Report—September 2010                      21
                                                      inconsistent, or inappropriate information in 1
Other OIG Accomplishments                             or more of 17 data fields that FinCEN deemed
and Activity                                          critical to law enforcement. In a written
                                                      response to our report, FinCEN noted that the
Inspector General Testimonies                         findings in the report were based on suspicious
                                                      activity report data filed in fiscal year 2006 and
On April 16, 2010, Inspector General Thorson          that FinCEN has since completed efforts to
testified along with FDIC Inspector General           improve the quality and integrity of suspicious
Jon Rymer before the Permanent Subcommittee           activity report data. FinCEN concurred with
on Investigations of the Senate Committee on          our recommendations and noted that it has
Homeland Security and Governmental Affairs            issued specific guidance to enhance filer
on the results of a joint Treasury OIG and            education, established an initiative to identify
FDIC OIG review of the WaMu                           systemic filing errors, and worked with federal
failure. (EVAL-10-002)                                regulators to resolve many of those types of
                                                      errors, among other actions.
On April 28, 2010, Inspector General Thorson
testified before the Subcommittee on Oversight        Mr. Thorson also informed the subcommittee
and Investigations of the House Committee on          that as a result of mandated MLRs we had
Financial Services in a hearing titled Reviewing      deferred our discretionary audit work in the
FinCEN Oversight Reports. Mr. Thorson’s               Treasury anti-money laundering and terrorist
testimony covered the key findings in our report      financing mission. (Subsequent to this hearing,
SAR Data Quality Requires FinCEN’s Continued          Dodd-Frank was enacted and provided the
Attention (OIG-10-030; issued January 19, 2010),      OIG with some relief from the MLR mandate
FinCEN’s response, and our prospective views          and should allow us to undertake more
to improve suspicious activity report data            discretionary oversight work.) With respect to
quality. Mr. Thorson also discussed how the           FinCEN, Mr. Thorson said that going forward
current wave of bank failures requiring MLRs          Treasury will face continuing challenges in this
affected OIG’s ability to conduct oversight of        mission area. He also noted the need for
FinCEN’s activities. Lastly, Mr. Thorson shared       diligent oversight over two related system
his observations with respect to FinCEN for           development efforts being undertaken to
Congress to consider.                                 support FinCEN, the electronic content
                                                      management system and BSA information
As Mr. Thorson noted, OIG has issued four             technology modernization. (OIG-CA-10-007)
audit reports on suspicious activity report data
quality. Each reported that a large percentage of     Also testifying at this hearing were FinCEN
suspicious activity reports contained missing or      Director James Freis and the Government
inaccurate data. As discussed in the January          Accountability Office officials.
2010 report, our latest audit concluded that
suspicious activity report data quality had not       OIG Ranked Third in Best Places to Work in the
significantly improved by 2006. We found that         Federal Government
59 percent of the approximately 1.1 million
suspicious activity reports filed in fiscal year      The Partnership for Public Service and
2006 contained omissions or incorrect,                American University’s Institute for the Study of

         Treasury Office of Inspector General Semiannual Report—September 2010                        22
                                                      Other OIG Accomplishments and Activity

Public Policy Implementation issued the “Best         Afghanistan to discuss the mission of U.S.
Places to Work in the Federal Government”             government inspectors general and Treasury
rankings by evaluating data from the Office of        OIG.
Personnel Management’s Employee Viewpoint
Survey. This year, we ranked number 3 among           The senior Afghan officials we briefed were
the “Best Places to Work in the Federal               Major General Mohammad Wakil Akbari,
Government” out of a total of 224 individual          Inspector General, Ministry of Interior Affairs;
agency subcomponents.                                 Major General Sadar Abul Fazil, Inspector
                                                      General, Ministry of Defense; and Major
We ranked first or second government-wide in a        General Jan Khan, Inspector General, General
range of categories including strategic               Staff.
management, effective leadership, performance
based rewards and advancement, support for
diversity, and work/life balance. We were
ranked first in more than 70 percent of the
individual questions on the survey, and in the
top 3 for 85 percent of the questions. In fact,
according to the Office of Personnel
Management’s definitions, we did not have a
single identified weakness in any of the areas
covered by the survey. Nonetheless, OIG is
taking deliberate steps to maintain progress in
these important areas and ensure that OIG             Pictured above are OIG executives with members of the
continues to be an employer of choice in the          Afghan delegation.
federal government. More information can be
found at                                              OIG Audit Leadership Roles
http://bestplacestowork.org/BPTW/rankings/. 
                                                      Treasury OIG’s audit professionals actively
Integrity Briefings to the Departmental Offices       support and serve on various important public
and the Bureaus                                       and private professional organizations
                                                      supporting the federal audit community.
During the reporting period, OIG investigators        Examples of Treasury OIG Audit personnel
conducted 15 integrity awareness briefings for        participation in these organizations follow:
more than 350 Treasury employees throughout
the country. These briefings are designed to          Marla Freedman, Assistant Inspector General
educate employees about the misuse of a public        for Audit, serves as co-chair of the Federal
official’s position and to deter employees from       Audit Executive Council’s Professional
committing such offenses.                             Development Committee which is actively
                                                      involved in auditor training and development
OIG Hosts Delegation from Afghanistan                 matters. Bob Taylor, Deputy Assistant
                                                      Inspector General for Performance Audits also
In May 2010, Inspector General Eric Thorson           serves on this committee.
and OIG executives met with a delegation from

         Treasury Office of Inspector General Semiannual Report—September 2010                           23
                                                      Other OIG Accomplishments and Activity

Joel Grover, Deputy Assistant Inspector
General for Financial Management and
Information Technology Audits, serves as co-
chair of the Federal Audit Executive Council’s
Financial Statements Committee which
develops and coordinates the council’s positions
on a variety of accounting and auditing issues
related to federal financial reporting. The
committee also jointly sponsors with the
Government Accountability Office an annual
federal financial statement audit update
conference.

Mr. Grover is a member of the Government
Performance and Accountability Committee of
the American Institute of Certified Public
Accountants and also serves as a co-chair of the
Maryland Association of Certified Public
Accountants Members in Government
Committee.




         Treasury Office of Inspector General Semiannual Report—September 2010            24
Statistical Summary
Summary of OIG Activity
For the 6 months ended September 30, 2010

                                                                                                Number or
OIG Activity                                                                                    Dollar Value
Office of Counsel Activity
Regulation and legislation reviews                                                                                 6
Instances where information was refused                                                                            3
Office of Audit Activities
Reports issued and other products                                                                                 17
Disputed audit recommendations                                                                                     0
Significant revised management decisions                                                                           0
Management decision in which the IG disagrees                                                                      0
Monetary benefits (audit)
Questioned costs                                                                                                   0
Funds put to better use                                                                                            0
Revenue enhancements                                                                                               0
Total monetary benefits                                                                                            0
Office of Investigations Activities
Criminal and judicial actions (including joint investigations)
Cases referred for prosecution and/or litigation                                                                  22
Cases accepted for prosecution and/or litigation                                                                   6
Arrests                                                                                                            3
Indictments/informations                                                                                           4
Convictions (by trial and plea)                                                                                    2


Significant Unimplemented Recommendations
For reports issued prior to October 1, 2009

The following list of OIG audit reports with unimplemented recommendations is based on information
in Treasury’s automated audit recommendation tracking system, which is maintained by Treasury
management officials.

Number                    Date         Report Title and Recommendation Summary
OIG-06-030                05/06        Terrorist Financing/Money Laundering: FinCEN Has Taken Steps to Better Analyze
                                       Bank Secrecy Act Data but Challenges Remain
                                       FinCEN should enhance the current FinCEN database system or acquire a
                                       new system. An improved system should provide for complete and accurate
                                       information on the case type, status, resources, and time expended in


             Treasury Office of Inspector General Semiannual Report—September 2010                                 25
                                                                                    Statistical Summary

                         performing the analysis. This system should also have the proper security
                         controls to maintain integrity of the data. (1 recommendation)


OIG-08-035      06/08    Network Security at the Office of the Comptroller of the Currency Needs Improvement
                         OCC should ensure that the principle of least privilege is enforced and
                         applied to all OCC computer users as required by OCC policy.
                         (1 recommendation)


OIG-08-036      06/08    BEP Needs to Enforce and Strengthen Controls on Its Eastern Currency Facility to
                         Prevent and Detect Employee Theft
                         BEP management should (1) establish clear, written policies and procedures
                         that specify assignment of responsibility and actions to be taken when
                         discrepancies are found in the production process and (2) ensure that
                         employees, including supervisors, are trained and periodically retrained in
                         product security-related policies and procedures. (2 recommendations)


OIG-09-024      01/09    General Management: Treasury Should Reactivate State-Held Federal Unclaimed Assets
                         Recovery Program (Corrective Action Verification on OIG-02-105)
                         Treasury should reactivate the state-held federal unclaimed assets recovery
                         program with appropriate policies, procedures, and controls. This
                         recommendation has a potential revenue enhancement monetary benefit of
                         $10.5 million over 3 years. (1 recommendation)


OIG-09-027      01/09    Management Letter for Fiscal Year 2008 Audit of the Office of the Comptroller of the
                         Currency’s Financial Statements
                         OCC should continue to dedicate resources to fully implement the necessary
                         System Management Server process to automatically and promptly detect
                         and remove unauthorized personal and public domain software from OCC
                         systems (workstations) and implement controls to restrict users from
                         downloading and installing unapproved software. (1 recommendation)


OIG-CA-09-011 07/09      Information Technology: FY 2009 Evaluation of Treasury’s FISMA Implementation
                         for Its Intelligence Program
                         Due to the sensitive nature of the finding and recommendation, we
                         designated the report Limited Official Use. One recommendation in this
                         report has not been implemented.


       Treasury Office of Inspector General Semiannual Report—September 2010                                   26
                                                                                             Statistical Summary




Summary of Instances Where Information Was Refused
April 1, 2010 through September 30, 2010

There is one matter where the Treasury OIG believes that it is being denied the assistance and
cooperation of a Treasury bureau in connection with our investigative responsibilities. Specifically, OIG
is being denied unrestricted and unfettered access to information from OCC for use in investigations of
possible fraud upon OCC by individuals of failed OCC-regulated financial institutions. These requests
for information are made pursuant to OIG's obligation to investigate issues relating to Treasury's
programs and operations, which include the national bank safety and soundness examinations
conducted by OCC, and attempts to interfere with or defraud those examinations.

This matter was precipitated by an OIG request during this semiannual period to OCC for bank
examination-related information. In response, OCC asserted the Right to Financial Privacy Act, which
precludes it from transferring such information unless OCC determines that it has reason to believe the
records are relevant to a legitimate law enforcement inquiry within the jurisdiction of the receiving
agency. However, the act also makes exceptions to this rule, one being our authority under the Inspector
General Act to have access to all records, reports, audits, reviews, documents, papers, recommendations,
or other material available to OCC.

In letters dated September 1, 2010, Inspector General Thorson informed the Chairmen and Ranking
Members of the Senate Committee on Finance and Senate Committee on Homeland Security and
Governmental Affairs, Permanent Subcommittee on Investigations, about this matter. The letters were
sent pursuant to a standing request by the Ranking Members of those committees for continuing notice
of instances when the Department or any of its offices or bureaus resisted or objected to our oversight
activities or restricted our access to information.



Listing of Audit Products Issued
April 1, 2010, through September 30, 2010

Financial Audits and Attestation Engagements
Audit of the Alcohol and Tobacco Tax and Trade Bureau's Fiscal Year 2009 Balance Sheet, OIG-10-041,
6/16/2010

Report on Controls Placed In Operation and Tests of Operating Effectiveness for the Bureau of the Public Debt's
Administrative Resource Center for the Period July 1, 2009 to June 30, 2010, OIG-10-047, 9/20/2010



          Treasury Office of Inspector General Semiannual Report—September 2010                                   27
                                                                                             Statistical Summary

Report on Controls Placed In Operation and Tests of Operating Effectiveness for the Bureau of the Public Debt's Federal
Investments Branch for the Period August 1, 2009 to July 31, 2010, OIG-10-048, 9/20/2010

Report on Controls placed in Operation and Tests of Operating Effectiveness for the Bureau of the Public Debt’s Trust
Funds Management Branch for the Period August 1, 2009 to July 31, 2010, OIG-10-049, 9/24/2010

Information Technology Audits
Information Technology: BPD Successfully Demonstrated Recovery of the Authentication Services-Fiscal Services CA
System, OIG-10-039, 5/11/2010

FY 2010 Audit of Treasury's FISMA Implementation for Its Intelligence System, OIG-10-046, 9/8/2010
(Classified)

Performance Audits
Safety and Soundness: Material Loss Review of Peoples Community Bank, OIG-10-040, 5/7/2010

Safety and Soundness: Material Loss Review of Union Bank National Association, OIG-CA-10-009, 5/11/2010

Safety and Soundness: Material Loss Review of BankUnited, OIG-10-042, 6/22/2010

Safety and Soundness: Material Loss Review of Vineyard Bank, National Association, OIG-10-044, 7/13/2010

Foreign Assets Control: OFAC Should Have Better and More Timely Documented Its Review of Potential Sanctions
Violations, OIG-10-045, 9/1/2010 (Sensitive But Unclassified)

Safety and Soundness: Failed Bank Review of Bayside Savings Bank, FSB, OIG-10-050, 9/29/2010

Safety and Soundness: Failed Bank Review of Turnberry Bank, OIG-10-051, 9/29/2010

Safety and Soundness: Failed Bank Review of Olde Cypress Community Bank, OIG-10-052, 9/29/2010

Evaluation and Other Products
Evaluation of Federal Regulatory Oversight of Washington Mutual Bank, EVAL-10-002, 4/9/2010

Statement of Inspector General Thorson Before the Senate Homeland Security and Governmental Affairs Committee,
Permanent Subcommittee on Investigations—Hearing on Wall Street and the Financial Crisis: The Role of Bank
Regulators, OIG-CA-10-006, 4/16/2010

Statement of Inspector General Thorson Before the House Committee on Financial Services, Subcommittee on Oversight
and Investigations—Hearing on Reviewing FinCEN Oversight Reports, OIG-CA-10-007, 4/28/2010


          Treasury Office of Inspector General Semiannual Report—September 2010                                         28
                                                                                                   Statistical Summary




Audit Reports Issued With Questioned Costs
April 1, 2010, through September 30, 2010

                                                                               Total         Total           Total
                                                                               No. of        Questioned      Unsupported
Category                                                                       Reports       Costsa          Costsa
For which no management decision had been made by beginning of reporting
periodb                                                                                  1        $995,367                 0
Which were issued during the reporting period                                            0               0                 0
  Subtotals                                                                              1        $995,367                 0
For which a management decision was made during the reporting period                     1        $995,367                 0
  Dollar value of disallowed costsc                                                      1        $600,000                 0
  Dollar value of costs not disallowedc                                                  1        $395,367                 0
For which no management decision was made by the end of the reporting period             0               0                 0
For which no management decision was made within 6 months of issuance                    0               0                 0
a   Questioned costs include unsupported costs.
b   Audit was performed by the Defense Contract Audit Agency.
c One   report was partially agreed to and partially not agreed to.




Audit Reports Issued With Recommendations That Funds Be Put to Better
Use
April 1, 2010, through September 30, 2010

At the beginning of the period, there were no audit reports from prior periods pending a management
decision on recommendations that funds be put to better use. There were also no audit reports issued
during this period with recommendations that funds be put to better use.



Previously Issued Audit Reports Pending Management Decisions (Over
6 Months)
There are no previously issued audit reports pending management decisions for the reporting period.




                Treasury Office of Inspector General Semiannual Report—September 2010                                  29
                                                                                    Statistical Summary

Significant Revised Management Decisions
April 1, 2010, through September 30, 2010

There were no significant revised management decisions during the period.



Significant Disagreed Management Decisions
April 1, 2010, through September 30, 2010

There were no management decisions this period with which the Inspector General was in
disagreement.



Peer Reviews
April 1, 2010, through September 30, 2010

Office of Audit

Audit organizations that perform audits and attestation engagements of federal government programs
and operations are required by Government Auditing Standards to undergo an external peer review every 3
years. The objective of an external peer review is to determine whether, during the period under review,
the audit organization’s system of quality control was suitably designed and whether the audit
organization was complying with its quality control system in order to provide the audit organization
with reasonable assurance that it was conforming to applicable professional standards.

No external peer reviews were conducted of the Treasury OIG Office of Audit during the period. The
date of the last external peer review was November 19, 2009, and was conducted by the Department of
State OIG. In its report, the Department of State rendered the opinion that the system of quality control
for the audit organization of Treasury OIG in effect for the year ended March 31, 2009, had been
suitably designed and complied with to provide Treasury OIG with reasonable assurance of performing
and reporting in conformity with applicable professional standards in all material respects. Federal audit
organizations can receive a rating of pass, pass with deficiencies, or fail. Treasury OIG received a peer
review rating of pass. There are no outstanding recommendations from this external peer review. A
copy of the Department of State OIG’s external peer review report is available on our website at
www.ustreas.gov/inspector-general/peer-audit-reports/Treasury%20OIG%20Peer%20Review%20Final%202009.pdf.

During this semiannual reporting period, we completed an external peer review of the National
Aeronautics and Space Administration OIG’s system of quality control for its audit organization. Our
report on that external peer review was dated June 30, 2010. The National Aeronautics and Space



         Treasury Office of Inspector General Semiannual Report—September 2010                            30
                                                                                 Statistical Summary

Administration OIG reported to our office that it does not have any outstanding recommendations
related to this peer review.

Office of Investigations

The Council of Inspectors General for Integrity and Efficiency requires that OIG investigative
operations undergo an external peer review every 3 years. In 2008, the Environmental Protection
Agency OIG concluded a peer review of the Treasury OIG Office of Investigations. Treasury Office of
Investigations received a rating of pass for the review and has addressed or implemented all of the
recommendations made by the Environmental Protection Agency.

Treasury OIG Office of Investigations performed no external peer reviews during the reporting period.
Previously, the Office of Investigations reviewed the General Services Administration OIG in 2007. The
General Services Administration OIG received a rating of pass and reported that there are no
outstanding recommendations from this external peer review.




         Treasury Office of Inspector General Semiannual Report—September 2010                     31
Bank Failures and Non-Material Loss Reviews
We conducted reviews of 32 failed banks and thrifts with losses to the Deposit Insurance Fund that did
not meet the definition of a material loss in the Federal Deposit Insurance Act. These reviews were
performed to fulfill the requirements of section 987 of Dodd-Frank.

Among other things, Dodd-Frank redefined the term “material loss” as it relates to a loss to the Deposit
Insurance Fund and, in turn, when a material loss review (MLR) is triggered. Accordingly, for 2010 and
2011, a loss to the Deposit Insurance Fund is defined as material if it exceeds $200 million; for 2012 and
2013, if it exceeds $150 million; and, for 2014 going forward, if it exceeds $50 million (with a provision
to temporarily raise the threshold to $75 million in certain circumstances). Prior to the enactment of
Dodd-Frank, a loss was defined as material if it exceeded the greater of $25 million or 2 percent of the
failed institution’s total assets.

For losses that are not material, section 987 of the act requires that for the 6-month period ending
March 31, 2010, and for each 6-month period thereafter, the OIG of each federal banking agency must
(1) identify the estimated losses that have been incurred by the Deposit Insurance Fund during that
6-month period and (2) determine the grounds identified by the failed institution’s regulator for
appointing the FDIC as receiver and whether any unusual circumstances exist that might warrant an in-
depth review of the loss. For each 6-month period, we are also required to prepare a report to the failed
institutions’ regulators and Congress that identifies (1) any losses that warrant an in-depth review,
together with the reasons why such a review is warranted and when the review will be completed, and
(2) any losses for which we determine that no in-depth review is warranted, together with an explanation
of how we came to that determination.

The table below fulfills this reporting requirement to Congress for the 6-month periods ended March 31
and September 30, 2010. Of the 32 banks and thrifts reviewed, we determined that an in-depth review
should not be performed for 28 institutions and we have issued or will issue separate audit reports on
our determinations to the responsible Treasury regulator. For 2 institutions, we determined that in-depth
reviews are warranted, and those reviews are in progress. The other 2 institutions were owned by the
First Bank of Oak Park Corporation, which owned 4 other national banks that were all closed on the
same day. We have MLRs in progress on the 4 other national banks because the related losses to the
Deposit Insurance Fund exceeded the material loss threshold at the time of failure. Our report on those
material loss reviews will discuss the 2 banks that did not require MLRs.




         Treasury Office of Inspector General Semiannual Report—September 2010                          32
                                                                      Bank Failures and Non-Material Loss Reviews


Bank Failures and Non-Material Loss Reviews

                                   Date
                                   Closed/Loss                                                                 Reason/
                                   to the                                                                      Anticipated
                                   Deposit             OIG Summary of                          In-Depth        Completion Date of
                                   Insurance           Regulator’s Grounds                     Review          the In-Depth
Bank Name/Location                 Fund                for Receivership                        Determination   Review
Regulator – OCC
Southern Colorado National Bank,   October 2, 2009     • Capital impaired                      No              No unusual circumstances noted
Pueblo, Colorado                   $10.5 million       • Dissipation of assets or earnings
                                                         due to unsafe or unsound
                                                         practices
                                                       • Unsafe or unsound condition
Bank USA, N.A.,                    October 30, 2009    • Capital impaired                      No              No unusual circumstances noted¹
Phoenix, Arizona                   $21.1 million       • Dissipation of assets or earnings
                                                         due to unsafe or unsound
                                                         practices
                                                       • Unsafe or unsound condition
Citizens National Bank,            October 30, 2009    • Capital impaired                      No              No unusual circumstances noted¹
Teague, Texas                      $24.9 million       • Assets are less than obligations to
                                                         creditors
Valley Capital Bank,               December 11, 2009   • Capital impaired                      No              No unusual circumstances noted
Mesa, Arizona                      $10.8 million       • Dissipation of assets or earnings
                                                         due to unsafe or unsound
                                                         practices
                                                       • Unsafe or unsound condition
Marshall Bank,                     January 29, 2010    • Capital impaired                      No              No unusual circumstances noted
Hallock, Minnesota                 $6.9 million        • Dissipation of assets or earnings
                                                         due to unsafe or unsound
                                                         practices
                                                       • Unsafe or unsound condition
The La Coste National Bank,        February 19, 2010   • Capital impaired                      No              No unusual circumstances noted
La Coste, Texas                    $3.7 million        • Assets are less than obligations to
                                                         creditors
Granite Community Bank,            May 28, 2010        • Capital impaired                      No              No unusual circumstances noted
Granite Bay, California            $20.2 million       • Dissipation of assets or earnings
                                                         due to unsafe or unsound
                                                         practices
                                                       • Unsafe or unsound condition
American National Bank,            March 19, 2010      • Capital impaired                      No              No unusual circumstances noted
Parma, Ohio                        $16.9 million       • Dissipation of assets or earnings
                                                         due to unsafe or unsound
                                                         practices
                                                       • Unsafe or unsound condition
Unity National Bank,               March 26, 2010      • Capital impaired                      Yes             Unusual circumstance identified2;
Cartersville, Georgia              $66.9 million       • Dissipation of assets or earnings                     estimated completion date is
                                                         due to unsafe or unsound                              February 2011
                                                         practices
                                                       • Unsafe or unsound condition
Beach First National Bank,         April 9, 2010       • Capital impaired                      No              No unusual circumstances noted
Myrtle Beach, South Carolina       $123.8 million      • Dissipation of assets or earnings
                                                         due to unsafe or unsound
                                                         practices
                                                       • Unsafe or unsound condition
BC National Bank,                  April 30, 2010      • Capital impaired                      No              No unusual circumstances noted
Butler, Missouri                   $15.7 million       • Dissipation of assets or earnings
                                                         due to unsafe or unsound
                                                         practices
                                                       • Unsafe or unsound condition




               Treasury Office of Inspector General Semiannual Report—September 2010                                                       33
                                                                        Bank Failures and Non-Material Loss Reviews

Bank Failures and Non-Material Loss Reviews

                                    Date
                                    Closed/Loss                                                                  Reason/
                                    to the                                                                       Anticipated
                                    Deposit            OIG Summary of                            In-Depth        Completion Date of
                                    Insurance          Regulator’s Grounds                       Review          the In-Depth
Bank Name/Location                  Fund               for Receivership                          Determination   Review
First National Bank,                June 4, 2010       • Capital impaired                        No              No unusual circumstances noted
Rosedale, Mississippi               $20.4 million      • Assets are less than obligations to
                                                         creditors
                                                       • Dissipation of assets or earnings
                                                         due to unsafe or unsound
                                                         practices
                                                       • Unsafe or unsound condition
First National Bank,                June 25, 2010      • Capital impaired                        No              No unusual circumstances noted
Savannah, Georgia                   $105.8 million     • Dissipation of assets or earnings
                                                         due to unsafe or unsound practice
                                                         and violations of laws and
                                                         regulations
                                                       • Unsafe or unsound condition
Bay National Bank,                  July 9, 2010       • Capital impaired                        No              No unusual circumstances noted
Baltimore, Maryland                 $17.3 million      • Dissipation of assets or earnings
                                                         due to unsafe or unsound
                                                         practices
                                                       • Unsafe or unsound condition
Home National Bank,                 July 9, 2010       • Capital impaired                        No              No unusual circumstances noted
Blackwell, Oklahoma                 $72.2 million      • Dissipation of assets or earnings
                                                         due to unsafe or unsound
                                                         practices
                                                       • Unsafe or unsound condition
First National Bank of the South,   July 16, 2010      • Capital impaired                        No              No unusual circumstances noted
Spartanburg, South Carolina         $73.4 million      • Dissipation of assets or earnings
                                                         due to unsafe or unsound
                                                         practices
                                                       • Unsafe or unsound condition
Williamsburg First National Bank,   July 23, 2010      • Capital impaired                        No              No unusual circumstances noted
Kingstree, South Carolina           $8.5 million       • Dissipation of assets or earnings
                                                         due to unsafe or unsound
                                                         practices
                                                       • Unsafe or unsound condition
Community National Bank at          August 20, 2010    • Capital impaired                        No              No unusual circumstances noted
Bartow,                             $10.1 million      • Dissipation of assets or earnings
Bartow, Florida                                          due to unsafe or unsound
                                                         practices
                                                       • Unsafe or unsound condition
Independent National Bank,          August 20, 2010    • Capital impaired                        No              No unusual circumstances noted
Ocala, Florida                      $22.9 million      • Dissipation of assets or earnings
                                                         due to unsafe or unsound
                                                         practices
                                                       • Unsafe or unsound condition
Regulator – OTS
Home Federal Savings Bank,          November 6, 2009   •   Capital impaired                      No              No unusual circumstances noted
Detroit, Michigan                   $8.3 million       •   Unsafe and unsound condition
Waterfield Bank,                    March 5, 2010      •   Capital impaired                      Yes             Unusual circumstance identified2;
Germantown, Maryland                $54 million        •   Assets are less than obligations to                   estimated completion date is
                                                           creditors                                             December 2010
                                                       •   Unsafe and unsound condition
                                                       •   Board of directors consented to
                                                           appointment of receiver
Key West Bank,                      March 26, 2010     •   Capital impaired                      No              No unusual circumstances noted
Key West, Florida                   $21.3 million      •   Unsafe and unsound condition
                                                       •   Board of directors consented to
                                                           appointment of receiver




               Treasury Office of Inspector General Semiannual Report—September 2010                                                         34
                                                                            Bank Failures and Non-Material Loss Reviews

Bank Failures and Non-Material Loss Reviews

                                   Date
                                   Closed/Loss                                                                           Reason/
                                   to the                                                                                Anticipated
                                   Deposit                  OIG Summary of                          In-Depth             Completion Date of
                                   Insurance                Regulator’s Grounds                     Review               the In-Depth
Bank Name/Location                 Fund                     for Receivership                        Determination        Review
First Federal Bank of North        April 16, 2010            • Capital impaired                     No                   No unusual circumstances noted
Florida,                           $21.6 million             • Unsafe and unsound condition
Palatka, Florida                                             • Board of directors consented to
                                                               appointment of receiver
Ideal Federal Savings Bank,        July 9, 2010              • Capital impaired                     No                   No unusual circumstances noted
Baltimore, Maryland                $2.1 million              • Unsafe and unsound condition
                                                             • Board of directors consented to
                                                               appointment of receiver
Woodlands Bank,                    July 16, 2010             • Capital impaired                     No                   No unusual circumstances noted
Bluffton, South Carolina           $114.9 million            • Unsafe and unsound condition
                                                             • Board of directors consented to
                                                               appointment of receiver
Olde Cypress Community Bank,       July 16, 2010             • Capital impaired                     No                   No unusual circumstances noted
Clewiston, Florida                 $31.4 million             • Unsafe and unsound condition
                                                             • Board of directors consented to
                                                               appointment of receiver
Mainstreet Savings Bank,           July 16, 2010             • Capital impaired                     No                   No unusual circumstances noted
Hastings, Michigan                 $11.3 million             • Board of directors consented to
                                                               appointment of receiver
Turnberry Bank,                    July 16, 2010             • Capital impaired                     No                   No unusual circumstances noted
Aventura, Florida                  $34.1 million             • Unsafe and unsound condition
                                                             • Board of directors consented to
                                                               appointment of receiver
Bayside Savings Bank,              July 30, 2010             • Capital impaired                     No                   No unusual circumstances noted
Port Saint Joe, Florida            $16.1 million             • Board of directors consented to
                                                               appointment of receiver
Los Padres Bank,                   August 20, 2010           • Capital impaired                     No                   No unusual circumstances noted
Solvang, California                $8.6 million              • Unsafe and unsound condition
Imperial Savings and Loan          August 20, 2010           • Capital impaired                     No                   No unusual circumstances noted
Association,                       $3.5 million
Martinsville, Virginia
Maritime Savings Bank,             September 17, 2010        • Capital impaired                     No                   No unusual circumstances noted
West Allis, Wisconsin              $83.5 million             • Board of directors consented to
                                                               appointment of receiver
¹ The bank was owned by First Bank of Oak Park Corporation.
2 A full scope MLR was substantially underway when Dodd-Frank passed and a decision was made not to terminate the MLR.




              Treasury Office of Inspector General Semiannual Report—September 2010                                                                35
References to the Inspector General Act
                                                             Requirement                                                   Page
Section 4(a)(2)     Review of legislation and regulations                                                                       25
Section 5(a)(1)     Significant problems, abuses, and deficiencies                                                            8-21
Section 5(a)(2)     Recommendations with respect to significant problems, abuses, and deficiencies                            8-21
Section 5(a)(3)     Significant unimplemented recommendations described in previous semiannual reports                       25-26
Section 5(a)(4)     Matters referred to prosecutive authorities                                                                 25
Section 5(a)(5)     Summary of instances where information was refused                                                          27
Section 5(a)(6)     List of audit reports                                                                                    27-28
Section 5(a)(7)     Summary of significant reports                                                                            8-21
Section 5(a)(8)     Audit reports with questioned costs                                                                         29
Section 5(a)(9)     Recommendations that funds be put to better use                                                             29
Section 5(a)(10)    Summary of audit reports issued before the beginning of the reporting period for which no management        29
                    decision had been made
Section 5(a)(11)    Significant revised management decisions made during the reporting period                                   30
Section 5(a)(12)    Management decisions with which the IG is in disagreement                                                   30
Section 5(a)(13)    Instances of unresolved FFMIA noncompliance                                                                  9
Section 5(a)(14)    Results of peer reviews conducted of Treasury OIG by another Office of Inspector General                 30-31
Section 5(a)(15)    List of outstanding recommendations from peer reviews                                                    30-31
Section 5(a)(16)    List of peer reviews conducted by Treasury OIG                                                           30-31
Section 5(d)        Serious or flagrant problems, abuses, or deficiencies                                                      N/A
Section 6(b)(2)     Report to Secretary when information or assistance is unreasonably refused                                  27




             Treasury Office of Inspector General Semiannual Report—September 2010                                                36
Abbreviations
ARM            adjustable rate mortgage
BSA            Bank Secrecy Act
CIGFO          Council of Inspectors General on Financial Oversight
Dodd-Frank     Dodd-Frank Wall Street Reform and Consumer Protection Act of 2010
FDIC           Federal Deposit Insurance Corporation
FinCEN         Financial Crimes Enforcement Network
FISMA          Federal Information Security Management Act of 2002
FMS            Financial Management Service
FSOC           Financial Stability Oversight Council
IPA            independent public accountant
IRS            Internal Revenue Service
IT             information technology
KPMG           KPMG LLP
MLR            material loss review
OCC            Office of the Comptroller of the Currency
OFAC           Office of Foreign Assets Control
OIG            Office of Inspector General
OMB            Office of Management and Budget
OTS            Office of Thrift Supervision
PCB            Peoples Community Bank
Recovery Act   American Recovery and Reinvestment Act of 2009
SBLF           Small Business Lending Fund
SSBCI          State Small Business Credit Initiative
TARP           Troubled Asset Relief Program
WaMu           Washington Mutual Bank




        Treasury Office of Inspector General Semiannual Report—September 2010      37
This page intentionally left blank.
This page intentionally left blank.
This page intentionally left blank.
    The Wall Street Reform and Consumer Protection Act of 2010




President Obama signing the Wall Street Reform and Consumer Protection Act into law on July 21, 2010
         

     
            contact us
     

    Headquarters
    Office of Inspector General
    1500 Pennsylvania Avenue, N.W.,
    Room 4436
    Washington, D.C. 20220
    Phone: (202) 622-1090;
    Fax: (202) 622-2151

    Office of Audit
    740 15th Street, N.W., Suite 600
    Washington, D.C. 20220
    Phone: (202) 927-5400;
    Fax: (202) 927-5379

    Office of Investigations
    799 9th Street, N.W., 8th Floor
    Washington, D.C. 20220
    Phone: (202) 927-5260;
    Fax: (202) 927-5421

    Office of Counsel
    740 15th Street, N.W., Suite 510
    Washington, D.C. 20220
    Phone: (202) 927-0650;
    Fax: (202) 927-5418                Treasury OIG Hotline
    Office of Management               Call Toll Free: 1.800.359.3898
    740 15th Street, N.W., Suite 510
    Washington, D.C. 20220
    Phone: (202) 927-5200;
                                       Treasury OIG Web Page
    Fax: (202) 927-6492
                                       OIG reports and other information are now available via the
    Eastern Field Audit Office         Internet. The address is
    408 Atlantic Avenue, Room 330      http://www.treas.gov/inspector-general
    Boston, Massachusetts 02110-3350
    Phone: (617) 223-8640;
    Fax (617) 223-8651
